UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1513
Michael Wayne Wadena
Appellant
v.
United States of America
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-00470-JRT)
ORDER
The petition for rehearing by the panel is denied. f ‘
A

May 07’;2020
,

•

. *.£

4

4

r

k • .
1

y

Order Entered at the Direction of the Court:.
Clerk,‘U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

.4 §'*,
‘

%

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1513

Michael Wayne Wadena
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:19-cv-00470-JRT)
JUDGMENT

Before LOKEN, COLLOTON, and KOBES, Circuit Judges.

The court has carefully reviewed the original file of the United States District Court and
orders that this appeal be dismissed for lack of jurisdiction.
April 03, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

March 11, 2020

Pippen q) vX

Mr. Michael Wayne Wadena
U.S. PENITENTIARY
20612-041
P.O. Box 1033
Coleman, FL 33521-1033
RE: 20-1513 Michael Wadena v. United States
Dear Mr. Wadena:

The district court clerk has transmitted a notice of appeal in this matter. In accordance
with Rule 24(a), Federal Rules of Appellate Procedure, the appeal has been docketed under the
number indicated. Please include the caption and the case number on all correspondence or
pleadings submitted to this court.
The notice of appeal has been treated as an application for certificate of appealability in
accordance with Rule 22(b) of the Federal Rules of Appellate Procedure. It will be forwarded to
a panel of judges for consideration. You will be advised of any action taken in the case.
Please note that service by pro se parties is governed by Eighth Circuit RuleJiSILA copy
of the rule and additional information is attached to the pro se party's copy of this notice.

'

On June 1, 2007, the Eighth Circuit implemented the appellate version of CM/ECF.
Electronic filing is now mandatory for attorneys and voluntary for pro se litigants proceeding
without an attorney. Information about electronic filing can be found at the court's web site
www.ca8.uscourts.gov. In order to become an authorized Eighth Circuit filer, you must register
with the PACER Service Center at https://www.pacer.gov/psco/cgi-bin/cmecf/ea-regform.pl.
Questions about CM/ECF may be addressed to the Clerk's office.
Michael E. Gans
Clerk of Court
CBO
Enclosure(s)
Ms. Deidre Yvonne Aanstad
cc:
Ms. Kate M. Fogarty
District Court/Agency Case Number(s): 0:19-cv-00470-JRT

c
U.S. District Court, District of Minnesota

■#

There is not an automatic right to appeal a § 2255 motion. Two requirements
must be met before an appeal may be heard: (if tire judge must enter a final order that is
adverse to you; and (2) you must receive a certificate of appealability. See Rule 11,
Rules Governing § 2255 Proceedings; 28 U.S.C. § 2253.
A certificate of appealability is an order authorizing you to file an appeal. The
district court is required to issue or deny a certificate of appealability when it enters thefinal order in your case that is adverse to you, but may first direct the parties to submit
arguments on whether the certificate of appealability should issue. See Rule 11, Rules
Governing § 2255 Proceedings.

If the district court issues you a certificate of

appealability in its final order, then you may proceed and file an appeal.

If the

ou must seek a certificate of appealability

cer-

from the Eighth Circuit Court of Appeals under Rule 22(b) of the Federal Rules of
Appellate Procedure.
How do I file an appeal?
After }mu receive a certificate of appealability, you must file a notice of appeal
and indicate you are appealing a final judgment denying § 2255 relief. A notice of
appeal is included in the appendix to this Guidebook. There is a filing fee of $505.00 for
an appeal. If you cannot afford to pay this fee, you can apply to proceed without
prepaying the fee (which is called proceeding in forma pauperis or IFP) by completing
the A0239 form "Application to Proceed in District Court Without Prepaying Fees or
Costs." The last page of the application, regarding prisoner trust account information,
is relevant and should be completed.

Even though you are seeking IFP status on
14

STATES OF AMERICA, Plaintiff, v. MICHAEL WAYNE WADENA, Defendant.
UNITED STATES DISTRICT COURT FOR THE DISTRICT OF MINNESOTA
2019 U.S. Dist. LEXIS 120725
Criminal No. 16-153 (JRT/JTH)
July 19, 2019, Decided
July 19, 2019, Filed
Editorial Information: Prior History
United States v. Wadena, 895 F.3d 1075, 2018 U.S. App. LEXIS 19790 (8th Cir. Minn., July 18, 2018)
{2019 U.S. Dist. LEXIS 1}For Plaintiff: Erica H. MacDonald, United
States Attorney, and Deidre Y. Aanstad, Assistant United States Attorney, UNITED STATES
ATTORNEY'S OFFICE, Minneapolis, MN.
Michael Wayne Wadena, Defendant, Pro se, Coleman, FL.
Judges: JOHN R. TUNHEIM, Chief United States District Judge.
Counsel

Opinion
Opinion by:

JOHN R. TUNHEIM
Opinion

Order Denying Defendant's 28 U.S.C. § 2255 Motion
In 2016, Defendant Michael Wayne Wadena pleaded guilty to being a Felon in Possession of a
Firearm in violation of 18 U.S.C. § 922(g)(1). (Plea Agreement at 1, Aug. 5, 2016, Docket No. 26.) At
the time, Wadena had three previous convictions in Minnesota state courts, two for Third Degree
Assault and one for a Fourth Degree Controlled Substance offense. (Id. at 3.)
The United States and Wadena disagreed over whether Wadena's prior convictions subjected him to
the Armed Career Criminal Act's ("ACCA") fifteen-year mandatory minimum sentence. The ACCA's
mandatory minimum applies when a federal defendant has at least three prior convictions, each
conviction being for either a "serious drug offense" or a "violent felony." 18 U.S.C. § 924(e)(1). A
serious drug offense is defined as one "involving manufacturing, distributing, or possessing with
intent to manufacture or distribute, a controlled substance ... for which a maximum{2019 U.S. Dist.
LEXIS 2} term of imprisonment of ten years or more is prescribed by law." 18 U.S.C. §
924(e)(2)(A)(ii).
The United States argued that Wadena's three convictions qualified under the ACCA and that
Wadena was therefore subject to the fifteen-year minimum sentence. (USA's Position on Sentencing
at 6-12, May 5, 2017, Docket No. 42.) Wadena disagreed, and argued that the ACCA did not apply.
(Def.'s Position on Sentencing at 6-16, Apr. 25, 2017, Docket No. 37.) As relevant here, Wadena
admitted that his controlled substance conviction came with a statutory maximum of fifteen years
imprisonment but argued that the conviction should not serve as an ACCA predicate because the
Minnesota Sentencing Guidelines calculation used at his state sentencing prescribed a sentence
below ten years. (Id. at 16.)
At the sentencing hearing, the Court overruled Wadena's objection to the ACCA enhancements,

1yhcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

20612041

finding that clear Eighth Circuit and Supreme Court precedent foreclosed his guidelines-based
argument. (Tr. at 10, May 19, 2017, Docket No. 57.) Finding that Wadena was subject to the ACCA's
fifteen-year minimum, the Court sentenced Wadena to 180 months imprisonment. (Sentencing J. at
2, May 11,2017, Docket No. 48.)
Wadena now files a 28 U.S.C. § 2255 Motion to Vacate, Set Aside, or Correct his Sentence.{2019
U.S. Dist. LEXIS 3} (Pro Se Motion to Vacate, Feb. 25, 2019, Docket No. 68.) He asserts that the
Court incorrectly concluded that his controlled substance conviction was a serious drug offense and
that the Court incorrectly applied the ACCA minimum. He argues that because the Minnesota
Sentencing Guidelines recommended a sentence below ten years, and because Minnesota courts
must usually stay within the guidelines range, his conviction does not qualify as a serious drug
offense.
Whatever the soundness of Wadena's argument then and now, the Court is bound by precedent to
find that his controlled substance conviction qualifies as an ACCA predicate. It is clear that his
statute of conviction carries with it a statutory maximum of fifteen years imprisonment. Minn. Stat. §
152.024 subd. 3. And, although the top of Wadena's sentencing guidelines calculation was far below
ten years, the Supreme Court has made clear that "the phrase 'maximum term of imprisonment. . .
prescribed by law' for the 'offense' was not meant to apply to the top sentence in a guidelines range"
but instead was meant to apply to "to the maximum term prescribed by the relevant criminal statute."
United States v. Rodriquez, 553 U.S. 377, 390-91, 128 S. Ct. 1783, 170 L. Ed. 2d 719 (2008). See
also Griffin v. United States, 617 F. App'x 618, 624-25 (8th Cir. 2015) (holding that the statutory
maximum determines whether a conviction{2019 U.S. Dist. LEXIS 4} qualifies as a serious drug
offense); United States v. Bynum, 669 F.3d 880, 885 n. 3 (8th Cir. 2012) (discussing Minn. Stat. §
152.024 and its applicability as a serious drug offense). Wadena argues that Minnesota sentencing
courts have limited discretion in departing from guideline ranges, and that his maximum sentence is
therefore less than ten years. But the Rodriquez decision found that limited discretion dispositive,
holding that "the top sentence in a guidelines range is generally not really the 'maximum term . . .
prescribed by law' for the 'offense' because guidelines systems typically allow a sentencing judge to
impose a sentence that exceeds the top of the guidelines range under appropriate circumstances."
Rodriquez, 553 U.S. at 390.
Wadena also relies on United States v. Haltiwanger, 637 F.3d 881 (8th Cir. 2011), to argue that the
Eighth Circuit does consider a defendant's specific possible sentencing outcomes in determining
whether a prior conviction qualifies as a serious drug offense. However, the Eighth Circuit has
distinguished Haltiwanger from the present situation because Haltiwanger's maximum statutory
sentence was dependent on whether he was a repeat offender. United States v. Jefferson, 822 F.3d
477, 481 (8th Cir. 2016). Here, Wadena's maximum state sentence was clearly prescribed at fifteen
years and was not dependent on Wadena meeting any prerequisites. Thus, Haltiwanger is
inapplicable.{2019 U.S. Dist. LEXIS 5}
Because the Court accurately applied Rodriquez and its protege, the Court did not err in finding that
Wadena's Minnesota controlled substance conviction was an ACCA predicate offense. Accordingly,
the Court did not err in finding that Wadena was subject to the ACCA's fifteen-year mandatory
minimum sentence. The Court will therefore deny Wadena's § 2255 Motion.
The United States requests that the Court deny Wadena a certificate of appealability. The Court may
grant a certificate of appealability only where a petitioner has made a substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2); Copeland v. Washington, 232 F.3d 969
(8th Cir. 2000). To make such a showing, the issues must be debatable among reasonable jurists, a
court must be able to resolve the issues differently, or the case must deserve further proceedings.

lyhcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

206120*1

See Fliegerv. Dele, 16 F.3d 878, 882-83 (8th Cir. 1994). The Court finds that it is unlikely that
another court would decide the issues raised in this § 2255 motion differently. For this reason, the
Court concludes that Wadena has failed to make the required substantial showing of the denial of a
constitutional right, and the Court denies a certificate of appealability.
ORDER
Based on the foregoing, and all the files, records, and proceedings herein, IT IS HEREBY
ORDERED that:
{2019 U.S. Dist. LEXIS 6}1. Defendant Wadena's Motion to Vacate under 28 U.S.C. § 2255
[Docket No. 68] is DENIED;
2. Wadena's Motion to Compel the Government to Respond [Docket No. 75] is DENIED as moot.
3. No certificate of appealability is granted.

lyhcases

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

20612041

FVpp-emc)

tr

U.S. District Court
U.S. District of Minnesota
Notice of Electronic Filing
The following transaction was entered on 2/5/2020 at 2:30 PM CST and filed on 2/5/2020
Case Name:
USA v. Wadena
Case Number:
0:16-cr-00153-.TRT
I
Filer:
Document Number: 83(No document attached)

i

Docket Text:
(Text only) ORDER granting [82] Motion Requesting the Court to Reopen the Time
*°, F!le an7 APPeal or In the Alternative A Notice of Appeal as to Michael Wayne
Wadena (1). Deadline for Defendant to file a Notice of Appeal is extended to
March 18, 2020. Signed by Chief Judge John R. Tunheim on 2/5/2020. (HAZJ
i

